NRC: OIG/97A-22 - Opportunities for Savings Available in Information Management Activities
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998 > OIG/97A-22
OIG/97A-22 - Opportunities for Savings Available in Information Management Activities
January 29, 1998
MEMORANDUM TO:
Anthony J. Galante
Chief Information Officer
FROM:
Thomas J. Barchi
Assistant Inspector General for Audits
SUBJECT:
OPPORTUNITIES FOR SAVINGS AVAILABLE IN INFORMATION MANAGEMENT ACTIVITIES
Attached is the Office of the Inspector General's (OIG) audit report titled "Opportunities for Savings Available in Information Management Activities."
On December 1, 1997, we provided a draft of this report to your office for review and comment. On December 17, we received your preliminary comments. Your final response dated January 13, 1998, is contained in Appendix II of this report. Based on your input, we made changes to the report as appropriate.
Please contact me on 415-5915 if we can assist you further in this matter.
Attachment:
As stated
Contents:
Report Synopsis
Introduction
Background
Findings
Opportunities Exist to Reduce the Operating Costs of the PDR
NRC Not Effectively Maintaining Mailing Lists
NRC Not Effectively Disposing of Excess Publications
Conclusion
Recommendations
Agency Comments
Appendices
I. Objectives, Scope, and Methodology
II. Major Contributors to this Report
III. Glossary: Office of the Inspector General Products
Investigative
Audit
Regulatory
Report Synopsis
In support of its mission, the U.S. Nuclear Regulatory Commission (NRC) performs substantial and diverse administrative and information management activities. These activities range from mail operations to World Wide Web management services and account for almost $60 million, or 12 percent of NRC's annual budget. The purpose of our review was to assess the efficiency, effectiveness, and economy of operations of selected support functions.
Our review showed that the electronic age has changed the way NRC's Public Document Room (PDR) interacts with the public. Based on this and other factors, we believe that conditions are favorable and savings could be realized by relocating the PDR to unoccupied space in NRC Headquarters or taking other action to reduce its operating costs. Leased space for the PDR currently costs $186,000 annually.
We also found that additional savings could be realized by (1) maintaining accurate and current mailing lists for over one-half million documents NRC distributes annually and (2) disposing of excess publications held in offsite storage. Our report makes three recommendations to address the issues identified.
Introduction
The U.S. Nuclear Regulatory Commission (NRC) carries out a wide variety of administrative and information management activities in support of its mission of protecting public health and safety, promoting the common defense and security, and protecting the environment. These support activities include significant expenditures for NRC's human and financial resources. The purpose of our review was to evaluate the efficiency, effectiveness, and economy of selected administrative and information management operations. Appendix I of this report contains additional information on our objectives, scope, and methodology.
Background
Within NRC's Management and Support Program, administrative and information management activities account for 12 percent or almost $60 million of the agency's total fiscal year (FY) 1998 budget estimate. Activities generated from more than 50 functions and 6 NRC offices are diverse and range from mail operations to World Wide Web management services.
The Office of Administration (ADM) is responsible for most administrative activities, including warehouse operations, property and facilities management, transportation, contracting, audiovisual support, and security. These administrative activities account for about $44 million, including $9 million in salaries and benefits for 124 full-time equivalent (FTE) staff.
However, the Office of the Chief Information Officer (OCIO) is responsible for most information management activities, including the Public Document Room (PDR), records management, Freedom of Information Act services, library services, publications, copying, graphics, and distribution. Information management activities account for about $16 million, including $7 million in salaries and benefits for 91 FTEs.
Findings
We found three areas that need management attention to reduce costs:   the operation of NRC's PDR, the accuracy of the agency's mailing and distribution lists, and the inventory levels of publications held in storage. Based on our review, we believe significant savings are available by moving the PDR from its present location in Washington, D.C., to NRC Headquarters in Rockville, Maryland, or through actions to reduce future operating costs. For example, current annual lease costs for the PDR are $186,000 . Because of NRC's use of the Internet and other electronic advances, the PDR's present location is no longer a major factor in providing public accessability to NRC documents.
We also found that NRC could reduce distribution costs by maintaining accurate and up-to-date mailing lists for over one-half million documents it mails annually. Finally, storage costs could be reduced by disposing of excess publications according to established agency procedures.
Opportunities Exist to Reduce the Operating Costs of the PDR
For more than 20 years, NRC's PDR has been located in Washington, D.C. to provide the public with easy access to agency records. In 1994, when NRC consolidated its headquarters in Rockville, Maryland, the PDR remained in Washington, D.C. The reason given for not including the PDR in the consolidation was to assure a better level of public accessibility. Currently, any member of the public may visit the PDR and access more than two million NRC documents in hard copy and electronic formats. However, the public now generally prefers to access NRC information from their homes or offices. NRC's PDR has provided that accessibility; in fact, the vast majority of documents are not obtained by visiting the PDR but rather are requested by letter, telephone, or computer.
To fulfill its mission of facilitating access to NRC publicly available documents and related sources of nuclear information, the PDR is staffed with approximately 11 FTEs and accommodates files, microfiche, computers, a copy center, and reading rooms. The PDR occupies approximately 10,000 square feet of space, which is leased from the General Service Administration (GSA) for approximately $186,000 a year. NRC can terminate its lease with GSA at any time with a 120-day notice.
The PDR maintains a collection of more than two million publicly released documents related to contracts, NRC licensing proceedings, rulemaking activities, and the setting of nuclear regulatory policy. In addition to making these documents available to the public, the PDR supports electronic access to these documents. Various electronic systems, including an online search and retrieval capability, can be accessed from anywhere in this country or overseas.
From January through August 1997, the PDR received an average of about 1,260 requests for information a month; approximately 250 of these requests originated from walk-in customers. However, 98 percent of the approximately 29,000 items requested was through means other than on-site visits. The majority of the PDR's customers request information by Internet, facsimile, letter, or telephone. The PDR also utilizes the Internet to increase public accessability to such items as Commission meeting announcements and recently issued NRC documents.
In 1991, the Commission considered co-locating the PDR with its headquarters operation. At that time, the sense of the Commission was that the PDR would be more accessible to the general public if located in Washington, D.C. The Commission also said that this position would be reviewed when NRC allocated space in its consolidation(1). Public accessibility, however, is no longer solely defined by geographical location. As stated above, the majority of the PDR's customers request information by means other than visiting the PDR. In addition, the agency is presently renovating and reallocating space in one of its two headquarters buildings. When this project is completed, NRC expects that at least a portion of one floor will be unoccupied.
We discussed the potential of moving the PDR to NRC Headquarters with officials in ADM and the OCIO. ADM is responsible for facilities management, and OCIO manages the PDR as a function of its information management services. Both offices have given the matter some consideration and have expressed interest in moving the PDR at some point in the future. OCIO officials believe that their planned Agency Document Access and Management System (ADAMS) may reduce the physical space required for the PDR if some agency documents are converted to electronic format. ADAMS is scheduled for implementation in FY 2000. We agree that ADAMS can potentially lessen the physical space required to store agency documents; however, we do not believe the agency should wait for ADAMS to consider the PDR relocation. We believe NRC may be able to reduce present PDR space requirements by eliminating duplicate hard copy files and using official files that are already available at headquarters. For example, as of October 1997, the PDR maintained 14,000 contract documents that duplicate NRC Headquarters contract files.
OCIO officials have expressed some concerns about immediately initiating a relocation project when the agency has committed its facilities management staff to other renovation/reallocation activities through FY 2000. However, when we discussed this matter with ADM officials, we were told that they could prepare and handle a PDR relocation within their current renovation/reallocation workload. The Chief Information Officer (CIO) indicated that he is considering phasing out the PDR through a transition from a primarily paper-based operation to total electronic public access.
Given the cost of leasing the Washington, D.C. location and the minimal number of customers currently using the PDR on a walk-in basis, we believe the agency should take action now to reduce the costs of operating the PDR. These actions could include relocating the PDR to NRC Headquarters or other modernizing / streamlining actions, such as moving to an all electronic service.
NRC Not Effectively Maintaining Mailing Lists
To eliminate unnecessary distribution and document costs, the U.S. Congress, Joint Committee on Printing, requires independent agencies, including NRC, to annually revise their mailing lists. In addition, Management Directive (MD) 3.6 (Manual Chapter 3203), Distribution of Unclassified NRC Staff and Contractor-Generated Reports, dated August 28, 1987, contains detailed distribution requirements. One of those requirements is to conduct "an annual audit of those addresses maintained on the NRC Mailing List." However, we found that NRC has not conducted such an audit since 1992 because of office reorganizations. And, as discussed later, we believe there is a high probability that many documents are being sent to inappropriate addressees or to addressees who no longer desire to receive the documents.
The OCIO's Printing, Graphics and Distribution Branch (PGDB) is responsible for providing initial distribution, including labeling and mailing, to NRC staff, licensees, other Government agencies, and interested parties, for a wide variety of NRC-generated publications and documents. In FY 1996, PGDB distributed 520,000 documents. The OCIO's automated mailing list contains about 10,400 addressees.(2) In addition, the OCIO maintains another distribution database that identifies, by code number, the various publications and groups and specific NRC staff responsible for determining recipients. For example, the Office of Nuclear Regulatory Research designates that 211 copies of NUREG-0713(3) are to be distributed to 180 internal and external addressees under code number "NR." At the end of August 1997, there were 186 codes that covered the various publications and distribution groups.
In 1992, NRC's staff conducted a survey of all individuals on its mailing lists. The agency also conducted a survey of all NRC codes to decide whether indicated distributions were still appropriate. As a result of these surveys, NRC eliminated 5,188 addressees from the mailing database and six codes from the distribution database. Since 1992, NRC has not conducted an annual survey of its addressees as required by the Joint Committee on Printing and MD 3.6 and has conducted only limited surveys of its distribution codes. The agency performed the last distribution code survey in February 1997 but covered only 87 of 186 codes.
NRC staff cited internal reorganizations (within ADM and the OCIO) as the primary impediment for surveys not being conducted. Notwithstanding the Joint Committee on Printing and NRC requirements for updating mailing lists, the results of the agency's 1992 surveys indicate that there is good potential for reducing the number of publications being printed, mailed, or internally distributed.
NRC Not Effectively Disposing of Excess Publications
Our review found that NRC does not validate its inventory of publications and dispose of excess items regularly. As a result, the agency is likely paying storage fees on publications that are no longer needed. NRC staff cited internal reorganizations as the primary impediment for inventory levels not being properly adjusted. By adjusting inventory levels, NRC could avoid Government Printing Office (GPO) storage fees on publications that are no longer needed.
The OCIO's PGDB is also responsible for managing the agency's publication inventory. Under an interagency agreement, GPO not only prints NRC formal publications, such as NUREGs, Regulatory Guides, and MDs, it also stores additional copies for subsequent use by NRC staff. As of August 8, 1997, NRC publications in GPO storage totaled 484,133 copies related to 2,445 original titles. NRC currently pays about $5,000 monthly for storage. These charges vary directly in proportion to the number of actual bins and pallets used to store publications. NRC MD 3.24 (Manual Chapter 3208), Publication Inventory Management, dated August 28, 1987, requires an annual validation of its holdings and disposal of excess publications according to an established schedule.
Based on our discussions with agency staff, no physical inventory of NRC documents in GPO storage has been taken for about seven years. Furthermore, although NRC has performed some disposal analysis, we found it has taken no actions for at least two years and levels appear unnecessarily high. As an example, 1,579 copies of NUREG-1355(4), dated March 1989, remain on hand as of August 1997 despite an NRC disposal report in March 1995 and a recommendation to dispose of 1,439 copies. Another example is that 1,509 copies of NUREG/BR-0187(5), dated December 1993, remain on hand despite an NRC disposal report in December 1996 and a recommendation to dispose of 1,506 copies. By disposing of excess publications, NRC could realize a corresponding reduction in bin and pallet storage costs. For example, $2,400 a month could be saved by reducing the number of documents and resulting storage bins and pallets by 50 percent.
Conclusion
We believe there is the potential for NRC to achieve significant savings in three areas. We found that opportunities exist to significantly reduce the operating costs of the PDR. Although modernizing PDR operations is under consideration, the agency has no near term plans to initiate such actions or relocate the PDR. We also believe that savings could be realized if NRC effectively managed the mailing lists for its documents and disposed of excess publications. It is our opinion that management attention in these support areas is needed to conserve and better manage the agency's scarce resources.
Recommendations
To achieve savings and improved effectiveness of key information management activities, we recommend that the OCIO:
Take immediate steps to reduce operating costs of its PDR while continuing
to provide efficient and effective public accessibility to NRC information.
Perform surveys, on a regular basis, of mailing list addressees and NRC
distribution codes and adjust distributions accordingly.
Dispose of excess publications held in GPO's storage on a regular basis.
Agency Comments
In his January 13, 1998 memorandum, the CIO responded to our draft report recommendations and outlined planned actions to address them. In a subsequent meeting requested by OIG, OCIO's Director, Information Management Division (IMD), explained that, although all actions under consideration will not be completed until December 1999, some steps are being taken immediately. For example, a benefit-cost analysis on alternatives for providing public access to the PDR's historical records is already underway. This step includes examining PDR record holdings and usage and will provide options for document storage as well as opportunities to reduce PDR lease costs. The Director, IMD, later told OIG that the benefit-cost analysis will be completed by July 1998 and that measures to reduce the PDR's operating costs will be taken as appropriate.
The CIO also raised two PDR-related issues that we need to address. First, his comment that ADM cannot make space available for even a radically scaled down version of the PDR until restack is completed in March 2000, does not fairly reflect information provided to OIG by ADM during our audit. Rather, ADM officials told OIG that they prefer to wait until after the restack effort is complete, but believe that with sufficient planning and lead time, an earlier PDR relocation could be accommodated if requested by OCIO. Second, relative to the use of official files, OIG never intended that the public should have access to NRC's official files and agrees that extensive use of these files to provide information to the public is impractical. However, OCIO may want to consider copying official files for documents requested infrequently by the public rather than maintaining duplicate files.
Finally, in his response to our recommendation to dispose of excess publications, the CIO indicated that the best way to reduce costs is to re-engineer and streamline work processes. This would include continuing to convert frequently-requested publications to electronic form and bringing inventory services in-house by the end of FY 1998. While these steps may lead to long-term benefits, we still believe, in the interim, NRC could reduce costs by reviewing the current inventory held in GPO storage and promptly disposing of excess publications.
We plan to monitor the agency's actions and progress toward implementing our recommendations.
Appendices
I. Objectives, Scope, and Methodology
The objective of our review was to evaluate the efficiency, effectiveness, and economy of U.S. Nuclear Regulatory Commission's (NRC) administrative activities. Our review also covered selected information management functions.
Our review focused on selected functions performed primarily by the Office of Administration (ADM) and the Office of the Chief Information Officer (OCIO). Those functions included (1) refurbishment and alterations performed by ADM and (2) copying, Public Document Room (PDR), Government Printing Office, commercial printing, graphics, document distribution, and publication inventory services performed by OCIO.
To accomplish our objective, we reviewed policies, procedures, monthly status reports, budgets, and other information related to the Chief Information Officer and Administration Activities within NRC's Resource and Administration Cost Center. We interviewed key NRC personnel from OCIO and ADM and obtained budget data from staff in the Office of the Chief Financial Officer. Our review included two visits to NRC's PDR in Washington, D.C.
We reviewed NRC's management controls for selected administrative and information management functions. Our work was conducted from July through October 1997 at NRC Headquarters in Rockville, Maryland, and at the PDR in Washington, D.C. We performed our review according to generally accepted Government auditing standards.
II. Major Contributors to this Report
Corenthis B. Kelley Team Leader
George T. Pourchot Audit Manager
Judith L. Leonhardt Senior Auditor
III. Glossary: Office of the Inspector General Products
Investigative
1.INVESTIGATIVE REPORT - WHITE COVER
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated. Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions. Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted. The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2.EVENT INQUIRY - GREEN COVER
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct. These reports identify institutional weaknesses that led to or allowed a problem to occur. The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3.MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4.AUDIT REPORT - BLUE COVER
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity. Audits follow a defined procedure that allows for agency review and comment on draft audit reports. The audit results are also reported in the OIG's "Semiannual Report" to the Congress. Tracking of audit report recommendations and agency response is required.
5.SPECIAL EVALUATION REPORT - BURGUNDY COVER
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6.REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations. Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections. Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress. Each report indicates whether a response is required.
1. In 1994, NRC completed its Headquarters consolidation
in Rockville, Maryland.
2. Another 6,500 material licensee addresses are controlled
by the Office of Nuclear Material Safety and Safeguards.
3. Occupational Radiation Exposure at Commercial Nuclear
Power Reactors and Other Facilities.
4. The Status of Recommendations of the President's Commission
on the Accident at Three Mile Island.
5. NRC Computer Systems Users Guide.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees